                                                EMPLOYMENT AND
                                                TRAINING
                                                ADMINISTRATION


Office of Inspector General—Office of Audit 





                                                RECOVERY ACT: THE U.S. DEPARTMENT OF
                                                LABOR NEEDS TO EVALUATE ITS ROLE IN THE
                                                HEALTH COVERAGE TAX CREDIT (HCTC)
                                                PROGRAM




                                                                       Date Issued: March 31, 2010
                                                                   Report Number: 18-10-003-03-390
U.S. Department of Labor
Office of Inspector General                             March 2010
Office of Audit
                                                        WHAT OIG FOUND
                                                        The TAA-certified eligible workers increased 58 percent
BRIEFLY…                                                in FY 2009 to 201,000, and PBGC total participants
                                                        encompass 744,000 retirees. However, states have
Highlights of Report Number: 18-10-003-03-390,          generally neither applied for nor used HCTC NEG
Recovery Act: The U.S. Department Of Labor Needs        Recovery Act funds. As of December 3, 2009, 3
To Evaluate Its Role In The Health Coverage Tax         grants totaling $8 million of the appropriated $150
Credit (HCTC) Program.                                  million have been awarded to 6 states and no
                                                        expenditures have been reported.
WHY READ THE REPORT
                                                        While ETA conducted various outreach activities,
The Recovery Act designated $150 million for use        these outreach efforts were not completely effective
by the Department’s Health Coverage Tax Credit          as 31 percent of non-participating states were not
(HCTC) National Emergency Grants (NEG) program          aware of the Recovery Act HCTC NEG program.
which provides for the cost of qualifying health        ETA did not contact states to assess their HCTC
insurance coverage for eligible Trade Adjustment        NEG funding needs and provide guidance to states
Assistance (TAA) participants and Pension Benefit       on changes made to the HCTC NEG program by the
Guaranty Corporation (PBGC) recipients until they       Recovery Act. It is crucial that ETA issue guidance
can be enrolled in the Internal Revenue Service’s       to ensure states are aware and knowledgeable of
(IRS) HCTC program. The Employment and Training         the policies and guidelines for the availability and
Administration (ETA) is responsible for administering   use of HCTC NEG funds under the Recovery Act.
the HCTC NEG program.
                                                        Low participation in HCTC NEG may have resulted
                                                        from factors outside of ETA’s control. Namely,
As of December 3, 2009, 3 grants totaling $8 million    enhancements to IRS’ HCTC program such as
of the appropriated $150 million had been awarded       reduced enrollment wait time, and the PBGC
to 6 states. The report discusses the Department’s      population was unknown to enable targeted
role in the HCTC program and the need for the full      outreach. Moreover, ETA’s lack of urgency to
$150 million given the program’s low participation.     provide effective outreach and issue guidance may
                                                        be attributed to the apparent conflict of ETA’s
                                                        interpretation of HCTC NEG funds as no-year
WHY OIG DID THE AUDIT                                   money and the Recovery Act’s clear message that
                                                        funds should be expended expeditiously by the end
Our audit objectives were to answer the following       of fiscal year 2010.
questions:
                                                        As a result of the low participation, eligible
1) What is the status of states applying for, and       individuals are not being served by the HCTC NEG
using Recovery Act funds under the HCTC NEG             program and funds were not spent as quickly as the
program?                                                Recovery Act intended. Therefore, $142 million of
                                                        funds may be better used if management took action
2) What outreach did ETA conduct to inform states       to evaluate and strengthen the HCTC NEG program.
of the availability of funds?
                                                        WHAT OIG RECOMMENDED
READ THE FULL REPORT                                    We made five recommendations to the Assistant
                                                        Secretary of Employment and Training to address
To view the report, including the scope,                low participation in the HCTC NEG program.
methodology, and full agency response, go to:
http://www.oig.dol.gov/publicreports/oa/2010/18-10­     ETA generally agreed with the recommendations
003-03-390.pdf.                                         and will pursue efforts to improve implementation of
                                                        the HCTC NEG. In its response to the draft report,
                                                        ETA took exception to our conclusion that HCTC
                                                        NEG funds are not available indefinitely. This not
                                                        withstanding, our primary concern was ETA has not
                                                        determined the need for the full $150 million given
                                                        the low participation in the program.
                Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                 Recovery Act: Health Coverage Tax Credit NEG
                                  Report No. 18-10-003-03-390
                                                                   Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 2


Objective 1 — 	What is the status of states applying for, and using Recovery Act 

              funds under the HCTC NEG program?............................................... 4


         Finding — Overall, states have neither applied for nor used HCTC NEG 

                   Recovery Act funds............................................................................ 4



Objective 2 — 	What outreach did the Employment and Training Administration 

              (ETA) conduct to inform states of the availability of funds?............ 7


         Finding — ETA conducted various outreach activities; however, these 

                   outreach efforts were not completely effective................................... 7



Recommendations ........................................................................................................ 9


Exhibits
         Exhibit A – IRS HCTC Enrollment Process ........................................................ 13

         Exhibit B – Changes to the HCTC Program Through the Recovery Act ............. 15 


Appendices
         Appendix A - Background................................................................................... 19

         Appendix B - Objectives, Scope, Methodology, and Criteria .............................. 21 

         Appendix C - Acronyms and Abbreviations ........................................................ 25

         Appendix D - Department’s Response to Draft Report ....................................... 27 

         Appendix E - Acknowledgements ....................................................................... 34 





                                                                      Recovery Act: Health Coverage Tax Credit NEG
                                                                                       Report No. 18-10-003-03-390
                Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                 Recovery Act: Health Coverage Tax Credit NEG
                                  Report No. 18-10-003-03-390
                                                 Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210


March 31, 2010

                        Assistant Inspector General’s Report

Ms. Jane Oates
Assistant Secretary
 for Employment and Training
U. S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The Recovery Act was signed into law by the President on February 17, 2009, to
preserve and create jobs, promote economic recovery, and assist those most impacted
by the recession. As a part of the Recovery Act, $150 million was designated for use by
the Department’s Health Coverage Tax Credit (HCTC) National Emergency Grants
(NEG) program which allows states to provide for the cost of qualifying health insurance
coverage for eligible individuals, until such time as they can be enrolled in the Internal
Revenue Service’s (IRS) HCTC program. States can pay this benefit for up to 3 months.
The primary mechanism for HCTC assistance is a Federal tax credit administered by
IRS. The Recovery Act increased the coverage from 65 percent to 80 percent. HCTC is
limited to eligible Trade Adjustment Assistance (TAA) participants and Pension Benefit
Guaranty Corporation (PBGC) recipients, and their qualified family members. The
Recovery Act allows qualified individuals to receive benefits until December 31, 2010.
At the Department, the Employment and Training Administration (ETA) is responsible
for administering HCTC NEG program.

TAA provides benefits to individuals who became unemployed because of increased
imports from, or shifts in production to, foreign countries. Employers or unions file a
petition with the Department to have their employees TAA certified. A petition may be
filed by a group of workers, a company, public agency official, One-Stop operators,
partners, and unions. TAA-certified workers increased 58 percent from 127,000 to
201,000 from fiscal year (FY) 2008 to 2009.

The PBGC website stated that PBGC pays monthly retirement benefits, up to a
guaranteed maximum, to nearly 744,000 retirees in 4,000 pension plans that ended.
The employer can end the plan in a standard termination after showing PBGC that the
plan has enough money to pay all benefits owed to participants. If the plan is not fully
funded and the employer is in financial distress, the employer may apply for a distress
termination. Although the eligible PBGC population for the HCTC program is unknown,
PBGC is responsible for the current and future pensions of about 1,476,000 people.




                                                   Recovery Act: Health Coverage Tax Credit NEG
                                         1                          Report No. 18-10-003-03-390
                                              Department of Labor – Office of Inspector General


OBJECTIVES

Our audit objectives were to answer the following questions:

1. What is the status of states applying for, and using Recovery Act funds under the
   HCTC NEG program?

2. What outreach did ETA conduct to inform states of the availability of funds?

SCOPE

The audit covered $150 million of Recovery Act funds appropriated under amended
section 174 (c) of the Workforce Investment Act (WIA) for use in the HCTC NEG
program. We audited the Department’s practices, policies, and procedures from
February 17, 2009, through December 3, 2009. We met with ETA’s Office of National
Response to obtain current guidance, an overview of outreach efforts and ETA’s
responsibilities related to HCTC NEG funds. We reviewed a schedule of HCTC NEGs
awarded, expenditures reported, and ETA outreach activities. Program-Specific
Recovery Act Plans were reviewed to determine ETA’s responsibilities and milestones.
In addition, we requested data from the 50 states, District of Columbia, and Puerto Rico,
to obtain information for HCTC NEGs eligible TAA and PBGC populations. We received
43 responses. We did not test internal controls or financial activity as this was not the
objective of our audit.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

RESULTS IN BRIEF

While TAA-certified eligible workers increased in FY 2009 to 201,000, and PBGC total
participants encompass 744,000 retirees, only $8 million of the appropriated $150
million has been awarded to states since the Recovery Act was signed into law on
February 17, 2009. In addition, 8 states have $4 million in HCTC NEG non-Recovery
Act funds remaining from prior years.

As of December 3, 2009, ETA has awarded three grants covering six states. Forty-four
states, the District of Columbia and Puerto Rico have not applied for HCTC NEG funds.
The 6 states were awarded grants in August and November 2009, and have not
reported any expenditures.

Low participation may have resulted from several factors outside of ETA’s control. ETA
and 18 non-participating states that responded to us indicated several factors for the

                                                Recovery Act: Health Coverage Tax Credit NEG
                                        2                        Report No. 18-10-003-03-390
                                               Department of Labor – Office of Inspector General


low participation. Namely, enhancements to IRS HCTC program that reduced
enrollment wait time to approximately one month, down from a several month wait time,
and ETA and the majority of states were not aware of the number of PBGC pension
recipients eligible to receive the HCTC NEG for targeted outreach. Although eligible
participants have increased, participants may have health coverage from other sources,
such as a spouse; and individuals may have been unable to afford the 20 percent cost
of the health insurance premiums. States also told us that the lack of required systems,
limited individual interest, high administrative costs, lack of qualified insurance plans,
and prior-year unexpected funds contributed to low participation in the HCTC NEG
program.

We also found that ETA’s outreach efforts were not completely effective to inform states
of the availability of HCTC NEG funds, and did not provide guidance to states on
changes made to the HCTC NEG program by the Recovery Act. Approximately one
third of non-participating states indicated they were not aware of the HCTC NEG
program under the Recovery Act. ETA could have provided better guidance to states on
changes and fund availability made by the Recovery Act for the HCTC NEG program.
Also, ETA did not contact states to obtain estimated future funding needs. ETA’s lack of
urgency to provide effective outreach and issue guidance may be attributed to the
apparent conflict of ETA’s interpretation of HCTC NEG funds as no-year money and the
Recovery Act’s clear message that funds should be expended expeditiously by the end
of fiscal year 2010. As a result, $142 million of HCTC NEG funds may be better used if
management took action to evaluate and strengthen the HCTC NEG program.

In a prior OIG audit report concerning the Department’s Performance Audit of HCTC
Bridge and Gap Programs (report number: 02-05-204-03-330, dated September 30,
2005), the OIG found that participant and expenditure levels were low, and funds were
underused. The former Assistant Secretary for Employment and Training generally
agreed with the recommendations to address the low participation and provided
potential remedies pertaining to excess funds; however, specific action plans were not
provided. One of the remedies cited by the former Assistant Secretary was that
Congress passed a bill which authorized states to reprogram NEG funds to assist
victims of Hurricane Katrina. Furthermore, the former Assistant Secretary believed that
“progress was being made” in regard to obtaining PBGC information.

We recommend the Assistant Secretary for Employment and Training take actions to
evaluate and strengthen the HCTC NEG program by assessing the need for the
remaining $142 million by obtaining an annual estimate of the amount of Recovery Act
HCTC NEG funds needed by each state, and reconcile the apparent conflict concerning
the period of availability of Recovery Act funds. Also, issue guidance, provide effective
outreach, and coordinate with PBGC to identify eligible PBGC recipients for potential
enrollment.

In her response to the draft report, the Assistant Secretary for Employment and Training
stated that she appreciated the recommendations provided by the OIG and will pursue
efforts to improve implementation of the HCTC NEG. However, ETA took exception to

                                                 Recovery Act: Health Coverage Tax Credit NEG
                                         3                        Report No. 18-10-003-03-390
                                                            Department of Labor – Office of Inspector General


our conclusion that HCTC NEG funds are not available indefinitely. This not
withstanding, our primary concern was ETA has not determined the need for the full
$150 million given the low participation in the program. Regarding PBGC participants,
the Assistant Secretary claimed that because of privacy considerations, ETA does not
have access to such information. However, the Assistant Secretary agreed to enhance
ETA’s relationship with both PBGC and IRS to enable states to identify potential eligible
PBGC recipients and to provide them with information about the HCTC NEG program.
We believe such information will be instrumental in determining the need for this
program.

The Assistant Secretary agreed to obtain annual estimates from states and issue HCTC
NEG guidance. However, the Assistant Secretary did not address the need for
additional outreach efforts. We continue to conclude that outreach efforts be enhanced
so all states become aware of the Recovery Act HCTC NEG program. ETA’s response
to the draft report is included in its entirety in Appendix D.

RESULTS AND FINDINGS

Objective 1 — What is the status of states applying for, and using Recovery Act
              funds under the HCTC NEG program?

Finding — Overall, states have neither applied for nor used HCTC NEG Recovery
Act funds.

The Recovery Act designated $150 million for HCTC NEG funds for FYs 2009 and
2010, to assist eligible TAA and PBGC individuals impacted by the recession with
assistance in covering the cost of health insurance. TAA-certified eligible individuals
increased in FY 2009 to 201,000, and PBGC total participants encompass 744,000
retirees. As of December 3, 2009, 3 grants1 totaling $8 million of the appropriated $150
million have been awarded to 6 states in August and November 2009, while no
expenditures have been reported. In addition, 8 states2 have $4 million in HCTC NEG
non-Recovery Act funds remaining from prior years. As a result of the low participation,
eligible individuals are not being served by the HCTC NEG program. Therefore, $142
million of HCTC NEG funds may be better used if management took action to evaluate
and strengthen the HCTC NEG program.

The purpose of the Recovery Act is to assist those most impacted by the recession, and
to manage and expend funds as quickly as possible consistent with prudent
management. Recovery Act Section 1899 K(a)(1)(A) made funds available to states for
eligible individuals and qualified family members with health insurance coverage for a
maximum of three months, or until the IRS enrolls and pays individuals under its HCTC


1
  ETA awarded 3 grants to 6 states. The three grants include Kentucky, North Carolina, and Maryland, with Maryland

covering a consortium that includes Alabama, Mississippi, and South Carolina. 

2
  The states with remaining non-Recovery Act funds include: Georgia, Maryland, Maine, North Carolina, Utah, 

Virginia, Washington and West Virginia.

                                                              Recovery Act: Health Coverage Tax Credit NEG
                                                    4                          Report No. 18-10-003-03-390
                                                Department of Labor – Office of Inspector General


program. Funding is provided as grants to states and ETA awards HCTC NEGs to
states upon request.

Low participation may have resulted from several factors outside of ETA’s control. ETA
and 18 non-participating states that responded to us indicated various factors for the
low participation. Namely, enhancements to IRS’ HCTC program such as reduced
enrollment wait time to approximately one month, down from a several month wait time,
and the PBGC population was unknown to enable targeted outreach. Other possible
causes for low participation included, individuals may have health coverage from other
sources, such as a spouse, Consolidated Omnibus Budget Reconciliation Act (COBRA),
or union; and individuals may have been unable to afford the 20 percent cost of the
health insurance premiums.

Furthermore, by September 30, 2010, the planned obligation of HCTC NEG funds was
only $28 million, or 19 percent, of the $150 million appropriated. However, ETA officials
were not able to provide a basis for that estimate. In addition, states have not reported
any expenditure on the $8 million HCTC NEG funds awarded as of December 3, 2009.

Enhanced IRS HCTC program

ETA and state officials consistently identified the enhanced IRS HCTC program as a
cause for low state participation. The efficiency of the IRS’ HCTC enrollment process
has improved as there is approximately one month wait time, down from several
months. Under the Recovery Act, IRS received $80 million for two years to administer
changes to the HCTC program. One important change was the establishment of the
IRS’ reimbursement program in August 2009, which is similar to the Department’s
HCTC NEG program. This program also entitles participants to be reimbursed for
qualified healthcare coverage payments while completing enrollment. The IRS HCTC
reimbursement program is scheduled to end December 31, 2010, unless reauthorized
by Congress.

Of the 18 states that provided reasons for low participation, 12 or 67 percent indicated it
was due to the enhanced IRS’ program. One state commented “there is no ’gap’ that
HCTC NEG funds need to close since the prompt connection to IRS for reimbursement
of 80 percent of our clients’ health insurance continuation premiums largely meets their
needs.” In addition, we interviewed 7 of 11 states that were unaware of the HCTC NEG
program, and found 3 states have a system in place to refer eligible individuals in need
of healthcare coverage assistance to the IRS HCTC program.

Currently, the IRS mails the potentially eligible participant an HCTC Program Kit, which
outlines the eligibility requirements to claim HCTC as well as the monthly registration
form to be completed for the advance monthly credit. While completing the eligibility and
registration form, the participant may also complete a reimbursement request form for
health care coverage payments. (See Exhibit A for IRS HCTC Enrollment Process.)



                                                 Recovery Act: Health Coverage Tax Credit NEG
                                         5                        Report No. 18-10-003-03-390
                                                             Department of Labor – Office of Inspector General


PBGC Population Unknown

HCTC is limited to eligible TAA participants and PBGC recipients, and their qualified
family members. PBGC pays monthly retirement benefits, up to a guaranteed
maximum, to nearly 744,000 retirees in 4,000 pension plans that ended. However,
according to an ETA official, ETA is unaware of the PBGC population. Specifically, ETA
does not have access to PBGC benefits recipients’ information and only collects the
number of participants in the HCTC NEG program with no breakout between TAA and
PBGC participants.

Although the eligible PBGC population for the HCTC program is unknown, PBGC is
responsible for the current and future pensions of about 1,476,000 people. Based on
the responses from 43 states, only 4 states were able to identify their PBGC population.
Had the PBGC population been known, targeted outreach could have been performed.
As a result, the PBGC population was not served by the HCTC NEG program. A state
suggested that to increase participation or enhance program performance, it would be
helpful if states can receive contact information for PBGC-covered individuals because
this will allow the states the opportunity to reach out to them.

In the prior OIG audit report Performance Audit of HCTC Bridge and Gap Programs, the
audit found a need for effective outreach systems to identify potentially eligible PBGC
individuals. The report recommended ETA coordinate with PBGC, IRS, and states to
develop a system to consistently and effectively transmit potentially eligible PBGC
population to the states or other designated parties to facilitate timely outreach. On
September 30, 2005, the former Assistant Secretary for Employment and Training
responded, “… there are confidentiality issues surrounding the release of information to
states vis-à-vis PBGC eligibles…. Several states and Federal agencies have been
actively seeking solutions which are not overly burdensome to any one entity, and we
believe progress is being made.”

Other Reasons for Low State Participation

According to ETA officials, the following may be contributing factors to the low state
participation and expenditure levels: 1) Existing grant funds of $4 million in HCTC NEG
non-Recovery Act funds remained at 8 states to serve eligible participants; 2) Eligible
participants may not require HCTC because they have health coverage via an
employed spouse, COBRA, or union benefits; and 3) Individuals are unable to afford to
pay the 20 percent cost of qualified health insurance coverage.

The OIG requested data from the 50 states, District of Columbia and Puerto Rico to
determine the status of states applying for Recovery Act HCTC NEGs. Of the 433 states
that provided data, 6 participated, 1 state has a pending application, and 36 did not
participate in the HCTC NEG program under the Recovery Act. Of the 36 non­


3
  The remaining seven states, District of Columbia and Puerto Rico did not respond to our data request or telephone
calls.
                                                               Recovery Act: Health Coverage Tax Credit NEG
                                                     6                          Report No. 18-10-003-03-390
                                                              Department of Labor – Office of Inspector General


participating states, 11, or 31 percent, were not aware of the HCTC NEG program. Of
the remaining 25, or 69 percent, that were aware of the program, 18 ranked the
following reasons4 for not participating:

                                                                     Number of states
                                                                       responded                 Average score*
Lack of Required Systems                                                            13                      3.8
Limited Individual Interest                                                         13                      3.7
High Administrative Cost                                                            12                      2.9
Lack of Qualified Insurance Plan                                                    10                      2.5
Prior-Year Unexpended Funds                                                           4                     3.8
* Participants ranked score of 1 through 5, with 5 being the most significant reason for not participating.
Some of the 25 states provided additional reasons for not participating in the HCTC
NEG program. For example one state official indicated, “Have heard feedback from
other states that this can be difficult to manage and take staff intensive time.”

Another reason for low participation included individuals who were unable to afford the
20 percent cost of the health insurance premiums. While ETA stated this may be a
cause, we asked states whether this was an issue. Of states that responded to this
issue, 9 of 20, or 45 percent, indicated the cost to participants of 20 percent of qualified
health insurance coverage was prohibitive in their enrollment to the HCTC program.

Objective 2 — What outreach did ETA conduct to inform states of the availability
              of funds?

Finding — ETA conducted various outreach activities; however, these outreach
efforts were not completely effective.

ETA conducted outreach through webinars, conference calls, emails, roundtable
discussion, and forums; however, these outreach efforts were not completely effective
as 11 of 36,5 or 31 percent, of non-participating states were not aware of the Recovery
Act HCTC NEG program. Furthermore, ETA did not contact the states to assess HCTC
NEG funding needs. ETA did not provide effective outreach to inform states of the
availability and use of HCTC NEG funds. In addition, ETA did not provide guidance to
states on changes made to the HCTC NEG program by the Recovery Act. It is crucial
that ETA issue guidance to states to ensure they are aware and knowledgeable of the
policies and guidelines for the availability and use of HCTC NEG funds under the
Recovery Act, as changes have been made to the HCTC program. As a result, 31
percent of the non-participating states were not aware of the Recovery Act HCTC NEG
program, eligible individuals for HCTC NEG may not be served, and funds were not
spent as quickly as the Recovery Act intended.



4
  Of the 25 states that did not participate and were aware of the HCTC program, 7 did not provide the reasons for not 

participating.

5
  Of the 43 state responses, 36 states were not participating in the Recovery Act HCTC NEG program. 

                                                                Recovery Act: Health Coverage Tax Credit NEG
                                                      7                          Report No. 18-10-003-03-390
                                               Department of Labor – Office of Inspector General


ETA’s lack of urgency to provide effective outreach and issue guidance may be
attributed to ETA’s interpretation of HCTC NEG funds as no-year money. The Recovery
Act amended WIA section 174 (c) (1) (A) and specifically provided, “(ii) $150,000,000
for the period of fiscal years 2009 through 2010.” (Underscoring added.) On the one
hand, this Recovery Act language would seem to suggest that Congress intended the
funds to be obligated by the end of fiscal year 2010. In fact, this interpretation is
consistent with both the stated purpose of the Recovery Act to serve as a stimulus to
the economy, as well as the Recovery Act’s own language in section 3(b) that calls for
“commencing expenditures and activities as quickly as possible consistent with prudent
management.” On the other hand, ETA asserts that it has been their practice, with the
concurrence of OMB, to treat section 174(c)(1)(A) funds as "no-year" funds since 2002.
According to ETA, an “x” account (indicating no-year funds) was established for the
HCTC NEG funds in both 2002 and 2009 in consultation with OMB, thereby making the
funds available to the states until expended. This interpretation does not comport with
the purpose and spirit of the Recovery Act.

In response to the draft report, the Assistant Secretary continued to assert that, “the
period of availability for obligation of the Recovery Act funds for HCTC to be as long as
there are valid claims against those funds.”

Additional Outreach Needed

According to ETA officials, ETA conducted two Webinars inclusive of PowerPoint
presentations, three conference calls with IRS, and regional forums. Although ETA
conducted these outreach activities, we cannot determine the sufficiency of these
outreach activities as ETA has not provided a listing of attendees, minutes of meetings,
or invitees to the meetings. Also, these outreach activities may not have enough
emphasis. Based on the review of the PowerPoint presentations and regional forum
report, it appeared the HCTC NEG program was mentioned within overall Recovery Act
discussions and not emphasized. When contacted by OIG, 3 of 11 states that were
unaware of the HCTC NEG program expressed interest in potentially participating in this
program.

Another important part of outreach is to assess each state’s funding needs. This issue
was addressed in the prior OIG audit report Performance Audit of HCTC Bridge and
Gap Programs. The audit recommended and the former Assistant Secretary agreed
with the need for an ongoing needs assessment of appropriated NEG funds. However,
in response to OIG inquiry for current Recovery Act HCTC NEG funds, ETA stated they
were unable to contact the states to assess future needs of HCTC NEG funds because
ETA maintained such contacts are “collections of information” covered by the
Paperwork Reduction Act (PRA). However, PRA would not preclude any contact or
outreach by ETA with the States to provide them with information about the HCTC NEG
program or how they can receive and utilize these funds. Furthermore, even if these
contacts with the States were covered by the PRA, it only required the states to take
certain procedural steps, which could have been initiated months ago.


                                                 Recovery Act: Health Coverage Tax Credit NEG
                                         8                        Report No. 18-10-003-03-390
                                                Department of Labor – Office of Inspector General


Overdue Guidance

The Program-Specific Recovery Plan stated ETA will issue a new Training and
Employment Guidance Letter (TEGL) by June 2009. One year after the Recovery Act
was enacted, ETA had not issued this TEGL detailing changes made to the HCTC NEG
program and the availability and use of the funds under the Recovery Act. ETA issued
TEGL 19-08 on April 30, 2009, to states to provide general policy guidance and
directions for all NEGs funded through Recovery Act. This TEGL stated “specific details
on the availability and use of Recovery Act funds for HCTC will be provided as part of a
separate TEGL.”

ETA officials stated the HCTC NEG under the Recovery Act fundamentally did not
change the HCTC NEG program under WIA, and therefore, the TEGL for the TAA
Reform Act of 2002 under WIA NEG was still applicable. However, it is crucial that ETA
issue guidance to states to ensure they are aware and knowledgeable of the policies
and guidelines for the availability and use of HCTC NEG funds under the Recovery Act
as changes have been made to the HCTC program. Some of these changes included
the increase in credit from 65 percent to 80 percent, TAA definition change, and
extended coverage for qualified family members. (See EXHIBIT B for changes to the
HCTC program through the Recovery Act.)

Conclusion

The Recovery Act increased the coverage from 65 percent to 80 percent to eligible TAA
participants and PBGC recipients, and their qualified family members. Overall states
have not applied for nor used HCTC NEG Recovery Act funds. Only $8 million of the
appropriated $150 million have been awarded. This was namely due to enhancements
in IRS’ HCTC program and the fact that the PBGC population was unknown. Also,
ETA’s outreach efforts were not completely effective to inform states of the availability of
HCTC NEG funds, and did not provide guidance to states on changes made by the
Recovery Act. Whether Congress intended the funds to be obligated by the end of fiscal
year 2010, or if they were no-year funds, the Department needs to reevaluate its role in
the HCTC program. The Recovery Act’s own language called for expenditures and
activities to commence as quickly as possible to assist eligible individuals impacted by
the recession. As a result, $142 million of HCTC NEG funds may be better used if
management took action to evaluate and strengthen the HCTC NEG program.

Recommendations

To address low participation in the HCTC NEG program, we recommend that the
Assistant Secretary for Employment and Training take the following actions to evaluate
and strengthen the HCTC NEG program:

   1. Assess the need for the remaining $142 million by obtaining an annual estimate
      of the amount of Recovery Act HCTC NEG funds needed by each state;

                                                  Recovery Act: Health Coverage Tax Credit NEG
                                         9                         Report No. 18-10-003-03-390
                                               Department of Labor – Office of Inspector General


   2. Coordinate with PBGC to identify eligible PBGC recipients for targeted outreach
      and potential enrollment;

   3. Provide effective outreach activities to ensure all 50 states, District of Columbia,
      and Puerto Rico are aware and knowledgeable of the Recovery Act HCTC NEG
      program;

   4. Issue proposed guidance to states for the availability and use of HCTC NEG
      funds under Recovery Act as changes have been made to the program; and

   5. Reconcile the apparent conflict between ETA’s interpretation that funds
      appropriated under this section are “no-year” funds, and the Recovery Act’s clear
      message that funds should be expended expeditiously.




Elliot P. Lewis
Assistant Inspector General for Audit




                                                 Recovery Act: Health Coverage Tax Credit NEG
                                        10                        Report No. 18-10-003-03-390
                  Department of Labor – Office of Inspector General




Exhibits 





                   Recovery Act: Health Coverage Tax Credit NEG
             11                     Report No. 18-10-003-03-390
                Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                 Recovery Act: Health Coverage Tax Credit NEG
           12                     Report No. 18-10-003-03-390
                                              Department of Labor – Office of Inspector General


                                                                                   EXHIBIT A
                    IRS HCTC ENROLLMENT PROCESS
TAA                                 PBGC
       Individual is laid-off.                   PBGC becomes trustee of
                                                 the pension plan.

TAA petition filed by a group of
workers, One-Stop Career Center                  PBGC prepares a list of
representative, or by a union.                   individuals who are 55 and
                                                 older and receive PBGC
                                                 benefits as of the first day of
Petition certified by the Department,            the month.
usually within 40 days. The Department
notifies the petitioner and the state.

                                                 PBGC transmits to the IRS HCTC
State transmits to the IRS HCTC                  Program potentially eligible
Program potentially eligible                     individuals on a monthly basis.
individuals daily.




                           The IRS HCTC Program mails the
                           individual an HCTC Program Kit, which
                           includes Registration Form.

                           Individual completes the Registration Form
                           and mails it back to HCTC Program.


                           The IRS determines eligibility; usually 4-6
                           weeks, and enrolls the individual in the
                           Program.


                          Individual pays 20 percent to HCTC
                          Program; HCTC Program adds the other
                          80 percent and submits 100 percent
                          payment to the health insurance provider.




                                                Recovery Act: Health Coverage Tax Credit NEG
                                       13                        Report No. 18-10-003-03-390
                Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                 Recovery Act: Health Coverage Tax Credit NEG
           14                     Report No. 18-10-003-03-390
                                                           Department of Labor – Office of Inspector General


 EXHIBIT B

          CHANGES TO THE HCTC PROGRAM THROUGH THE RECOVERY ACT

The Trade Adjustment Assistance Health Coverage Improvement Act was passed as part of the
Recovery Act. The Recovery Act made changes to the HCTC. These changes are in effect until
December 31, 2010.

   CRITERIA                        HCTC Program                                     HCTC Program
                              (before the Recovery Act)                         (after the Recovery Act)
 Increase in         65 percent                                          80 percent (May 2009 – December
 Credit (IRS & the                                                       2010)
 Department)
 IRS                 None                                                80 percent Reimbursement while
 Reimbursement                                                           enrolling in the Program.
 TAA Definition      Individuals who were on break from training or      Definition changed to include individuals
 Change              who were receiving Unemployment                     who are on break from Trade
                     Compensation were not eligible for the credit.      Readjustment Allowances (TRA)
                                                                         training program, and those who are
                                                                         receiving Unemployment Compensation
                                                                         and who would be eligible to receive
                                                                         TRA without regards to the enrollment
                                                                         in training.
 Extended            Family members were not eligible to continue        Starting January 2010, qualified family
 Coverage for        receiving the credit after the primary individual   members will be able to receive the
 Qualified Family    becomes ineligible for the credit.                  credit after the death, divorce, or
 Members                                                                 Medicare enrollment of the primary
                                                                         individual.
 COBRA Benefits      Individuals need to pay 100 percent of              Individuals need to pay 35 percent of
                     insurance premium. Cobra beneficiaries              insurance premiums. COBRA benefits
                     generally are eligible for group coverage for       for TAA and PBGC recipients have
                     up to 18 months. Certain qualifying events          been extended to
                     may permit a beneficiary to receive a               December 2010.
                     maximum of 36 months of coverage.
 Expanded            Not Applicable                                      Coverage through Voluntary
 Health Insurance                                                        Employees’ Beneficiary Associations
 Options                                                                 qualifies as a “Qualified Health
                                                                         Insurance” option for HCTC.
 U.S. Territories    Individuals from U.S. territories were not          Starting January 2010, eligible
 can now receive     eligible to participate in the monthly advance      individuals from U.S. territories can
 Monthly Credit      credit.                                             participate in the monthly credit.
 63 Day Lapse        HCTC candidate must not have more than              Lapse period does not take into account
 Rule                62-day lapse in their insurance coverage.           the period of time beginning when an
                     Individuals were not able to avoid this lapse       individual has a TAA-related loss of
                     before the Recovery Act.                            coverage and ending seven days after
                                                                         the date on their HCTC eligibility
                                                                         certificate.




                                                             Recovery Act: Health Coverage Tax Credit NEG
                                                  15                          Report No. 18-10-003-03-390
                Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                 Recovery Act: Health Coverage Tax Credit NEG
           16                     Report No. 18-10-003-03-390
                    Department of Labor – Office of Inspector General




Appendices 





                     Recovery Act: Health Coverage Tax Credit NEG
               17                     Report No. 18-10-003-03-390
                Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                 Recovery Act: Health Coverage Tax Credit NEG
           18                     Report No. 18-10-003-03-390
                                                           Department of Labor – Office of Inspector General


                                                                                                Appendix A
Background

The Recovery Act was signed into law by the President on February 17, 2009, to
preserve and create jobs, promote economic recovery, and assist those most impacted
by the recession. As of March 12, 2010, Congress provided $70.6 billion to the
Department. Of this, $150 million was designated for use by the Department’s HCTC
NEG program.

Table 1: Department of Labor Recovery Act Funding, as of March 12, 2010


                                                                           Amount a
Program                                                                   (millions)        Percent

Unemployment Insurance                                                        $65,687           93.00

Training and Employment Services                                                 3,950           5.59

State Unemployment Insurance and Employment
Service Operations                                                                 400           0.57

Community Service Employment for Older Americans                                   120           0.17

National Emergency Grants for Health Insurance
Coverage                                                                           150           0.21

Job Corps                                                                          250           0.35

Departmental Management                                                              80          0.11

Total                                                                         $70,637b         100.00
a
  – The amounts other than “Unemployment Insurance” were obtained from the Recovery Act dated February 17, 

2009. The “Unemployment Insurance” amount was provided by the Office of the Assistant Secretary for 

Administration and Management, and includes amounts made available for Federal and State Extended Benefits, 

Extension of Emergency Unemployment Compensation, 2008, and Federal Additional Unemployment Compensation 

programs. 

b
  – The total amount does not include $6 million provided to the OIG to provide oversight over the Department’s 

Recovery Act activities.


Funding of the HCTC NEG program is governed by section 174(c) of WIA. The
Recovery Act (section 1899K of Division B) specifically amended section 174(c) of WIA
and provided $150 million in Recovery Act funds for the period of fiscal years 2009
through 2010. HCTC NEGs allow states to provide for the cost of qualifying health
insurance coverage for eligible individuals, until such time as they can be enrolled in the

                                                             Recovery Act: Health Coverage Tax Credit NEG
                                                  19                          Report No. 18-10-003-03-390
                                                Department of Labor – Office of Inspector General


IRS’ HCTC program. States can pay this benefit for up to 3 months. The primary
mechanism for HCTC assistance is a Federal tax credit administered by the IRS. The
Recovery Act increased the coverage from 65 percent to 80 percent. The HCTC is
limited to eligible TAA participants and PBGC recipients, and their qualified family
members. At the Department, ETA is responsible for administering the HCTC NEG
program.

TAA provides benefits to individuals who became unemployed because of increased
imports from, or shifts in production to, foreign countries. Employers or unions file a
petition with the Department to have their employees TAA-certified. A petition may be
filed by a group of workers, a company, public agency official, One-Stop operators,
partners, and unions. TAA-certified workers increased 58 percent from 127,000 to
201,000 from FY 2008 to 2009.

The PBGC website stated that PBGC pays monthly retirement benefits, up to a
guaranteed maximum, to nearly 744,000 retirees in 4,000 pension plans that ended.
The employer can end the plan in a standard termination after showing PBGC that the
plan has enough money to pay all benefits owed to participants. If the plan is not fully
funded and the employer is in financial distress, the employer may apply for a distress
termination. Although the eligible PBGC population for the HCTC program is unknown,
PBGC is responsible for the current and future pensions of about 1,476,000 people.

In a prior OIG audit report concerning the Department’s Performance Audit of HCTC
Bridge and Gap Programs (OIG Report Number 02-05-204-03-330, dated September
30, 2005), the audit found that participant and expenditure levels were low, and that
funds were underused. Several barriers were identified that led to low participation
including participant premium cost, up-front participant cost, most states not electing to
participate in the program, effective exclusion of the PBGC population, program
awareness, and overall program complexity. The former Assistant Secretary for
Employment and Training generally agreed with the recommendations to address the
low participation and provided potential remedies pertaining to excess funds; however,
specific action plans were not provided. One of the remedies cited by the former
Assistant Secretary was that, “Congress recently passed a bill which authorizes states
to reprogram NEG funds previously awarded to assist victims of Hurricane Katrina.”
(Underscoring added.) Furthermore, the former Assistant Secretary believed that
“progress was being made” in regard to obtaining PBGC information.




                                                 Recovery Act: Health Coverage Tax Credit NEG
                                         20                       Report No. 18-10-003-03-390
                                               Department of Labor – Office of Inspector General


                                                                                 Appendix B
Objective, Scope, Methodology, and Criteria

OBJECTIVES

Our audit objectives were to answer the following questions:

1. What is the status of states applying for, and using Recovery Act funds under the
   HCTC NEG program?

2. What outreach did ETA conduct to inform states of the availability of funds?

SCOPE

The audit covered $150 million of Recovery Act funds appropriated under amended
section 174 (c) of WIA for use in the HCTC NEG program. We audited the Department’s
practices, policies, and procedures from February 17, 2009, through December 3, 2009.
We met with ETA’s Office of National Response to obtain current guidance, an overview
of outreach efforts, and ETA’s responsibilities related to HCTC NEG funds. We
reviewed a schedule of HCTC NEGs awarded, expenditures reported, and ETA
outreach activities. Program-Specific Recovery Act Plans were reviewed to determine
ETA’s responsibilities and milestones. We did not test internal controls or financial
activity, due to the audit objectives, the timing of three grants that were awarded, and
there were no reported expenditures.

Fieldwork was conducted at ETA Office of National Response located in Washington,
D.C. In addition we requested data from the 50 states, District of Columbia, and Puerto
Rico, to obtain information for HCTC NEGs eligible TAA and PBGC populations. We
received 43 responses.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

METHODOLOGY

The audit was performed using data gathered from several sources. We met with
officials from ETA’s Office of National Response to clarify their role and responsibilities
in administering the Recovery Act HCTC NEGs, and to determine the potential factors
contributing to low participation and expenditure levels. We interviewed an IRS official to
obtain an understanding of the IRS’ HCTC program under the Recovery Act.



                                                 Recovery Act: Health Coverage Tax Credit NEG
                                        21                        Report No. 18-10-003-03-390
                                               Department of Labor – Office of Inspector General


We reviewed ETA’s Program-Specific Recovery Act Plan for HCTC NEG, which
documented ETA’s major planned program milestones and expected completion dates.
We obtained documentation supporting their milestones related to issuing guidance,
technical assistance, outreach and training. We also reviewed a prior OIG audit report
HCTC Bridge and Gap Programs (OIG Report Number 02-05-204-03-330, dated
September 30, 2005).

The OIG requested data from the 50 states, District of Columbia, and Puerto Rico to
determine the status of states applying for Recovery Act HCTC NEGs, and outreach
performed by ETA to inform states of the availability of funds. We also requested data
from all non-participating states to assess their awareness of the Recovery Act HCTC
NEG, to determine ETA’s outreach efforts to states, and their reasons for not applying
for HCTC NEG funds. Data was also requested from participating states to assess
ETA’s outreach efforts to states, and a suggestion to increase participation and/or
enhance program performance.

In total, we received 43 responses to our data request. Of the 43 states that provided
data, 6 participated, 1 state has a pending application, and 36 did not participate in the
HCTC NEG program under the Recovery Act. We evaluated the responses to
determine the overall level of awareness of HCTC NEG, the nature and extent of ETA’s
outreach efforts, and barriers contributing to low participation in the HCTC NEG
program. Sampling was not performed as data requests were sent to all 50 states,
District of Columbia, and Puerto Rico; therefore, projection was not necessary.

CRITERIA

We used the following to perform this audit:

   	 American Recovery and Reinvestment Act of 2009, February 17, 2009

   	 Trade Adjustment Assistance Reform Act of 2002, August 6, 2002

   	 Training and Employment Guidance Letter (TEGL) 19-08, National Emergency
      Grants Funded with American Recovery and Reinvestment Act of 2009
      Resources, dated April 30, 2009

   	 Training and Employment Guidance Letter (TEGL) 20-02, Use of National
      Emergency Grant (NEG) Funds Under the Workforce Investment Act (WIA), as
      Amended, to Support Health Insurance Coverage Assistance for Trade-Impacted
      Workers, March 3, 2002

   	 Training and Employment Guidance Letter (TEGL) 20-02, Change 1, 

      May 13, 2004 


   	 Training and Employment Guidance Letter (TEGL) 10-02, Use of National
      Emergency Grant Funds Under the Workforce Investment Act, as Amended, to
                                                 Recovery Act: Health Coverage Tax Credit NEG
                                        22                        Report No. 18-10-003-03-390
                                        Department of Labor – Office of Inspector General


    Develop Systems for Health Insurance Coverage Assistance for Trade-Impacted
    Workers, October 10, 2002

   Paperwork Reduction Act of 1980




                                          Recovery Act: Health Coverage Tax Credit NEG
                                  23                       Report No. 18-10-003-03-390
                Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                 Recovery Act: Health Coverage Tax Credit NEG
           24                     Report No. 18-10-003-03-390
                                         Department of Labor – Office of Inspector General


                                                                           Appendix C
Acronyms and Abbreviations

COBRA                 Consolidated Omnibus Budget Reconciliation Act

Department            Department of Labor

ETA                   Employment and Training Administration

FY                    Fiscal Year

HCTC                  Health Coverage Tax Credit

IRS                   Internal Revenue Service

NEG                   National Emergency Grant

OIG                   Office of Inspector General

OMB                   Office of Management and Budget

PBGC                  Pension Benefits Guaranty Corporation

PRA                   Paperwork Reduction Act

Recovery Act          American Recovery and Reinvestment Act of 2009

TAA                   Trade Adjustment Assistance

TEGL                  Training and Employment Guidance Letter

TRA                   Trade Readjustment Allowances

WIA                   Workforce Investment Act




                                            Recovery Act: Health Coverage Tax Credit NEG
                                    25                       Report No. 18-10-003-03-390
                Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                 Recovery Act: Health Coverage Tax Credit NEG
           26                     Report No. 18-10-003-03-390
                                        Department of Labor – Office of Inspector General


                                                                          Appendix D
Department’s Response to Draft Report




                                         Recovery Act: Health Coverage Tax Credit NEG
                                  27                      Report No. 18-10-003-03-390
     Department of Labor – Office of Inspector General




      Recovery Act: Health Coverage Tax Credit NEG
28                     Report No. 18-10-003-03-390
     Department of Labor – Office of Inspector General




      Recovery Act: Health Coverage Tax Credit NEG
29                     Report No. 18-10-003-03-390
     Department of Labor – Office of Inspector General




      Recovery Act: Health Coverage Tax Credit NEG
30                     Report No. 18-10-003-03-390
     Department of Labor – Office of Inspector General




      Recovery Act: Health Coverage Tax Credit NEG
31                     Report No. 18-10-003-03-390
     Department of Labor – Office of Inspector General




      Recovery Act: Health Coverage Tax Credit NEG
32                     Report No. 18-10-003-03-390
                                              Department of Labor – Office of Inspector General


                                                                                Appendix E
Acknowledgements

Key contributors to this report were Mark Schwartz (Audit Director), Nadeem Afzal, Lisa
Larosa, Charmaine Thorne, and Cardelia Tsoi.




                                               Recovery Act: Health Coverage Tax Credit NEG
                                       33                       Report No. 18-10-003-03-390
To report Fraud, Waste, or Abuse, please contact:

           Online:       http://www.oig.dol.gov/hotlineform.htm
           Email:        hotline@oig.dol.gov

           Telephone:	   1-800-347-3756
                         202-693-6999

           Fax:          202-693-7020

           Address:      Office of Inspector General
                         U.S. Department of Labor
                         200 Constitution Avenue, N.W.
                         Room S-5506
                         Washington, D.C. 20210
